     e-Government and the Postal Service —
         A Conduit to Help Government
             Meet Citizens’ Needs




                             January 7, 2013




Prepared by U.S. Postal Service Office of Inspector General
            Report Number: RARC-WP-13-003
U.S. Postal Service Office of Inspector General                                 January 7, 2013
e-Government and the Postal Service                                            RARC-WP-13-003



         e-Government and the Postal Service — A Conduit
             to Help Government Meet Citizens’ Needs


                                       Executive Summary

Electronic government (e-government) is the use of the Internet and other digital
technologies by government agencies to provide services to citizens, businesses, and
other parts of government. It has developed over the past 20 years in response to the
changing needs of an increasingly digital society. Federal, state, and local agencies
have turned to e-government for innovative ways to increase access to information and
services, improve government operations, cut costs, and promote civic engagement. At
the same time, government agencies are experiencing budget constraints and
reductions. Agencies have expensive and many parallel field office network structures
across the United States that are, despite efforts, still inaccessible to many citizens.

In earlier papers the U.S. Postal Service Office of Inspector General discussed the idea
of a universal digital platform for postal services, e-commerce, citizen data storage,
digital cash being added to money order services, and other offerings. This paper
focuses on e-government opportunities for the Postal Service. Through interviews with
officials from multiple agencies and our own research, we determined that the specific
e-government services these agencies need to better serve citizens, and that the Postal
Service could address, fall under five basic categories:

       Communications management – The Postal Service could combine existing
        applications such as the Electronic Postmark® with secure electronic messaging
        and digital-physical hybrid services to support government communications and
        transactions.

       Online and in-person identification – The Postal Service, through its vast retail
        network, could facilitate the transition of government transactions online by
        offering digital and in-person identification services.

       Front office services for direct citizen contact – Agencies that require front office
        personal contact could utilize the Postal Service’s national retail network for
        applications, status changes, and in-person witness certifications.

       Electronic payments – The retail network could serve as an enrollment and cash
        redemption/reload channel for agencies that issue prepaid cards. The Postal
        Service could also provide postal money orders and its own prepaid cards on
        behalf of other agencies, which citizens could use for secure refunds, loan and
        grant proceeds, and benefit or entitlement payments.




                                                  i
U.S. Postal Service Office of Inspector General                              January 7, 2013
e-Government and the Postal Service                                         RARC-WP-13-003


       Broadband access – The Postal Service could support national efforts to expand
        broadband availability by providing convenient access points via Post Offices in
        underserved communities, as well as aerial access that expands the broadband
        umbrella.

In each category, the Postal Service could assist agencies in increasing efficiency and
improving the quality and convenience of services. The Postal Service could also help
agencies to minimize fraud and abuse through its identity authentication services and
law enforcement capabilities. In addition, a Postal Service physical-digital platform could
provide a crucial bridge to enable users to access government services through
whatever channel best meets their needs. The platform would also add a layer of
resiliency to essential public functions during emergencies.

Today, there are still lingering gaps in security, access, and ease of use that have
hindered full, public adoption of existing e-government services, as well as the
development of new services. First, there is a lack of appropriate identity authentication
for sensitive online government transactions. Some transactions still require human
interaction — for example, transactions that are complex or require a witness,
identification, or sworn attestation. Second, some people lack access to the Internet or
are uncomfortable with accessing government services online. Finally, existing e-
government services are often fragmented across multiple agencies or websites,
making it difficult for users to easily access and navigate the services they need. To
address these gaps, the federal government has launched a number of initiatives —
such as the E-Government Act of 2002 and the 2012 Digital Government Strategy. The
goals of these initiatives are to provide better customer service, improve security, and
promote interagency collaboration.

The goals set forth by the federal government represent opportunities for the Postal
Service to help citizens better receive government services. They also can set the
course for the Postal Service to fulfill its longstanding role in a new era. The Postal
Service could establish a one-stop, shared, multi-channel service platform to help all
levels of government address accessibility, ease of use, and security gaps. At the same
time, the Postal Service could also help address massive duplicative costs across
agencies — which is particularly important given the current budget environment. The
Postal Service network offers a highly accessible link when human interaction is
needed.

The Postal Service’s role in providing e-government services is based on its founding
mission, core competencies and assets, and opportunities allowed by law. First,
providing e-government services aligns well with the Postal Service’s traditional mission
of “binding the nation together” through secure and private communications — a
mission that continues in the digital age. Second, the Postal Service has core
competencies and assets that are ideally suited for multi-channel delivery of e-
government services, including a digital infrastructure, traditional mail operations, and
in-person contact through its Post Office network and delivery carriers. Third, it is
important to note that the Postal Service needs no change in law to supply non-



                                                  ii
U.S. Postal Service Office of Inspector General                                January 7, 2013
e-Government and the Postal Service                                           RARC-WP-13-003


traditional services to government agencies or provide interagency service agreements
at the federal level.

Finally, we offer some suggestions that could support the successful implementation of
e-government services via the Postal Service:

       Consider establishing a dedicated unit within the Postal Service to guide e-
        government initiatives.

       Seek partnerships and promote cooperative plans with government agencies at
        the federal, state, and local levels.

       Identify appropriate funding mechanisms, which could include service fees,
        private partnerships, shared agency funding, and others. This funding would
        represent only a small fraction of agencies’ current costs, with the potential for
        immediate savings.

       Examine the services that foreign posts have successfully established to support
        their governments. For some posts, the revenue from these added services has
        been significant and is growing.

The provision of e-government services is actionable today, unlike other Postal Service
opportunities that have been suggested previously. Moreover, e-government services
would leverage the unique resources and capabilities of the Postal Service to support
the nation as it has done since its founding. The Postal Service is already becoming the
identity authentication leader in the federal government. As the most public face of
government to everyday citizens, the Postal Service can continue to help the
government meet the ever-evolving needs of those citizens in ways that are better,
cheaper, faster, and beneficial to all Americans.




                                                  iii
U.S. Postal Service Office of Inspector General                                                                 January 7, 2013
e-Government and the Postal Service                                                                            RARC-WP-13-003




                                                 Table of Contents

Introduction ..................................................................................................................... 1

e-Government: Definition, Shortcomings, and Trends..................................................... 2
          Definition .............................................................................................................. 2
          Current Shortcomings of e-Government ............................................................... 3
          Future Trends ....................................................................................................... 5

The Role for the U.S. Postal Service in e-Government ................................................... 6
          A Physical-Digital Enabling Platform for Government Services ............................ 7
          Why the U.S. Postal Service?............................................................................... 7

The Postal Service Could Offer a Wide Range of e-Government
Products and Services .................................................................................................. 10
          Communications Management ........................................................................... 11
          Online Identification ............................................................................................ 12
          Front Office Services .......................................................................................... 12
          Electronic Payments ........................................................................................... 12
          Broadband Access ............................................................................................. 13

Agencies Could Benefit from a Postal Service e-Government Offering ........................ 13

Implementation Considerations ..................................................................................... 16

Many International Posts Successfully Offer e-Government Services .......................... 19

Conclusion .................................................................................................................... 20




                                                                 iv
U.S. Postal Service Office of Inspector General                                                            January 7, 2013
e-Government and the Postal Service                                                                       RARC-WP-13-003




                                                      Figures

Figure 1            Evolutionary Stages of e-Government ................................................... 3

Figure 2            The 2012 White House Digital Government Strategy ............................ 5

Figure 3            The Postal Service Physical-Digital Platform ......................................... 6

Figure 4            Why the U.S. Postal Service?................................................................ 8

Figure 5            e-Government Products and Services ................................................. 11

Figure 6            Implementation Considerations for a Potential e-
                    Government Platform .......................................................................... 17


                                                  Appendices

Appendix A          Key Developments in Federal e-Government ...................................... 23

Appendix B          Additional Details on Select Postal Service e-Government
                    Offerings .............................................................................................. 24

Appendix C          e-Government Services Provided by Selected
                    International Postal Operators ............................................................. 26




                                                            v
U.S. Postal Service Office of Inspector General                                                    January 7, 2013
e-Government and the Postal Service                                                               RARC-WP-13-003




          e-Government and the Postal Service — A Conduit
              to Help Government Meet Citizens’ Needs


Introduction
The migration of government communications and transactions to electronic channels
— known as electronic government (e-government) — started in the late 1990s, in
response to the changing needs of an increasingly digital society. A number of laws and
regulations emerged at all levels of government to foster the adoption of Internet
technologies to digitize and streamline paper-based processes and services.

The 1998 Government Paperwork Elimination Act and the E-Government Act of 2002
laid the foundations of e-government. The Government Paperwork Elimination Act
introduced the requirement for agencies to use new digital technologies to enable
citizens to access government information and services electronically, while the E-
Government Act of 2002 established, among other things, a dedicated federal
coordination entity within the Office of Management and Budget (OMB) — the Office of
Electronic Government and Information Technology — tasked with providing guidance
to agencies.

Despite the significant progress achieved in implementing the electronic delivery of
public services, many shortcomings remain. Serious barriers including security and
privacy issues, a lack of cross-government collaboration, and a digital divide — millions
of people without access to high-speed Internet — still prevent the full, efficient
digitization of many public services. While the recent proliferation of cloud computing,
smartphones, wireless devices, and online applications created new opportunities for
government to innovate, it has also made the digital landscape even more complex.
New cyber risks and types of fraud associated with the increasing online exchange of
sensitive information require government to operate more safely and securely, while the
lack of financial resources compels agencies to “innovate more with less.” 1

The Postal Service has traditionally played a vital role in ensuring the secure, reliable,
and universal physical delivery of government communications and transactions to all
individuals and businesses in the United States. As the federal government continues to
transform its service delivery in the digital age, the Postal Service could utilize its unique
resources and capabilities to enhance the development of e-government services. This
would help government, at all levels, leverage online channels to further improve the
quality and customization of services to citizens, achieve greater efficiency and


1
 Executive Office of the President, Office of Management and Budget, Office of E-Government and Information
Technology, Digital Government: Building a 21st-Century Platform to Better Serve the American People, May 23,
2012, http://www.whitehouse.gov/sites/default/files/omb/egov/digital-government/digital-government-strategy.pdf.


                                                         1
U.S. Postal Service Office of Inspector General                                                  January 7, 2013
e-Government and the Postal Service                                                             RARC-WP-13-003


coordination between agencies, and extend public participation in government —
“anytime, anywhere, and on any device.” 2

This paper discusses opportunities for the Postal Service to support the nation’s
expansion into the e-government domain and presents a way forward in the
development of a suite of digital and hybrid solutions.


e-Government: Definition, Shortcomings, and Trends

Definition

Simply defined, e-government is the use of the Internet and other digital technologies to
enhance the access to and delivery of government information and services. e-
Government can also improve government operations, cuts costs, and promote citizen
engagement in government. 3 The recipients of e-government services are citizens,
businesses, government agencies, or a combination of one or more of these groups. A
government agency could provide online benefit applications to citizens, an Internet
portal for information on loans or regulations to businesses, and centralized databases
to other agencies — all of these instances demonstrate types of e-government services.

e-Government involves multiple stages of development, ranging from establishing a
simple web presence with the purpose of providing government information, to the
complete integration of government functions online and the digitization of public
services. Figure 1 describes the main stages of e-government development and
provides examples of services in each stage.




2
 Ibid.
3
 E-Government Act of 2002, Pub. L. No. 107-347, § 2, 116 Stat. 2899 (codified at 44 U.S.C. § 3601 (2012));
H.R. 2458/S. 803.


                                                        2
U.S. Postal Service Office of Inspector General                                                       January 7, 2013
e-Government and the Postal Service                                                                  RARC-WP-13-003

                               Figure 1: Evolutionary Stages of e-Government




    Presence                       Interaction                     Transaction                      Integration

    One-way online                 Two-way online                  Self-service                     Active citizen
    delivery of                    channels for                    options for users                participation in
    general                        users to contact                to independently                 government. Shift
    information to                 government,                     complete tasks                   to customer-
    the public. No                 submit requests                 online, from start               centric services.
    interactive                    or questions, and               to finish.
    capabilities.                  receive
                                   assistance.

    Example                        Example                         Example                          Example

    Phone numbers                  E-mail contacts                 Complete                         Services of
    listed on agency               for simple                      application and                  multiple agencies
    website.                       questions and                   payment for                      accessible through
                                   downloadable                    licenses online.                 a single service
                                   forms.                                                           point.




Source: OIG Analysis




Current Shortcomings of e-Government

Despite the progress achieved to date, all levels of government must address several
key barriers that prevent or hinder user adoption and the full development of
e-government. These barriers include

Lack of universal and adequate standards for online identification and authentication –
Today, users may have to provide their personal information many different times, in
many different ways, and with many different passwords. Current digital identity
processes are often insufficient for government services that require verification of the
link between a digital identity and a real person, business, or entity. These current
approaches are in most cases based on username and password, which are
inadequate to provide the appropriate level of privacy and security necessary to move
government services online safely. 4 Nevertheless, government adoption of new,
universal standards is inhibited by two major factors: the potential high cost of
implementing an in-person verification system and the difficulty of ensuring the right
balance between the rigor of authentication and convenience.



4
 U.S. Postal Service Office of Inspector General, Digital Identity: Opportunities for the Postal Service, Report No.
RARC-WP-12-011, May 29, 2012, http://www.uspsoig.gov/foia_files/RARC-WP-12-011.pdf.


                                                           3
U.S. Postal Service Office of Inspector General                                                  January 7, 2013
e-Government and the Postal Service                                                             RARC-WP-13-003


Digital divide – Many citizens have limited or no access to the Internet, or lack the
technological resources or capabilities to participate in e-government. An April 2012
report from the Pew Research Center found that one in five American adults does not
use the Internet. 5 In particular, some of the people who are least likely to use the
Internet are often physically or socially vulnerable individuals, who may be more likely to
need government services. 6

Lack of trust due to security and privacy concerns – Some users believe that electronic
channels for transmitting sensitive data are less private and secure than traditional
channels. Several recent examples of data security lapses — such as the recent attacks
on Yahoo, LinkedIn, Google, AOL, and the federal Thrift Savings Plan’s password
systems — illustrate the potential danger to consumers of online fraud and theft. 7 In
other cases, users may perceive government as “Big Brother” — gathering and
integrating information on citizens, and invading their privacy. 8

Lack of coordination in the provision of e-Government services – Many agencies
currently have a decentralized approach to the provision of e-government services.
They operate independently of one another, delivering services and information in silos,
often duplicating processes and infrastructures. This lack of intra-government
collaboration and process integration is economically unproductive and causes internal
inefficiency for agencies, while negatively impacting the quality of service for citizens.

Fragmented user access to e-Government services – A recent government report found
that there are almost 1,500 “.gov” domains in the United States, with more than 11,000
websites across 56 agencies. 9 Despite efforts of the federal government to provide a
unified information access point through the www.USA.gov website — the U.S.
government's official web portal — users still need to access services by visiting
multiple websites, each of which might require separate identification, authentication, or
payment systems. Such a fragmented and decentralized approach prevents users from
being able to quickly and conveniently access the information and services they need.
For example, users may be required to submit the same documents across multiple
agencies, or even within different segments of the same agency.




5
  Aaron Smith and Kathryn Zickuhr, Digital Differences, Pew Research Center Internet & American Life Project,
April 13, 2012, http://pewinternet.org/Reports/2012/Digital-differences/Overview.aspx.
6
  “The Good, the Bad and the Inevitable: The Pros and Cons of e-Government,” The Economist, February 14, 2008,
http://www.economist.com/node/10638105.
7
  Kristin Dian Mariano, “LinkedIn, Lastfm, eHarmony Accounts Compromised; Users Should Use Strong Passwords,”
International Business Times, June 8, 2012, http://au.ibtimes.com/articles/349923/20120608/linkedin-password-hack-
lastfm-eharmony-solution-protect.htm. Amanda Palleschi, “Lawmakers Press for Answers on Thrift Savings Plan
Cyber Breach,” Government Executive, May 30, 2012, http://www.govexec.com/pay-benefits/2012/05/lawmakers-
press-answers-thrift-savings-plan-cyber-breach/55987/. Nicole Perlroth, “Yahoo Breach Extends Beyond Yahoo to
Gmail, Hotmail, AOL Users,” The New York Times, July 12, 2012, http://bits.blogs.nytimes.com/2012/07/12/yahoo-
breach-extends-beyond-yahoo-to-gmail-hotmail-aol-users/.
8
  European Commission, Breaking Barriers to eGovernment: Overcoming Obstacles to Improving European Public
Service, August 8, 2007, http://www.egovbarriers.org/?view=project_outputs, p. 15.
9
  .gov Reform Task Force, State of the Federal Web Report, December 16, 2011,
http://www.usa.gov/webreform/state-of-the-web.pdf, p. 3.


                                                        4
U.S. Postal Service Office of Inspector General                                                 January 7, 2013
e-Government and the Postal Service                                                            RARC-WP-13-003


Need for more customized service access channels – Government services often are
not optimized for smartphones or tablets. With 46 percent of American adults owning a
smartphone, and with the increasing use of tablet devices, it is essential that the
government allow users to conveniently access content and perform transactions
through multiple devices. 10 It is important to note that for some users, their only access
to the internet is via a smartphone or tablet.

Future Trends

In May 2012, the White House released its Digital Government Strategy. 11 Recognizing
emerging technology trends in areas such as data sharing platforms, mobile messaging,
and cloud computing, the White House laid out a roadmap for 21st century digital
government. The document sets guidelines for federal agencies to follow in order to
address current shortcomings, as well as to take advantage of emerging technologies to
further innovate and enhance the quality and efficiency of public services.
                     Figure 2: The 2012 White House Digital Government Strategy




                            Shared Platform                Online Security and Privacy


                                            Digital Government
                                                  Strategy

                         Information-Centric                    Customer-Centric




Source: OIG Depiction of the 2012 White House Digital Government Strategy



The Digital Government Strategy is built upon four overarching principles:

A shared platform approach – To deliver better services at a lower cost, federal
agencies are required to share resources — reducing duplication and leveraging
existing infrastructures and capabilities (“do once, use many times”). 12 The objective is
to transform government into a platform based on common cross-agency standards,
upon which both agencies and private sector organizations can build services and
applications.
10
   Aaron Smith, Cell Internet Use 2012, Pew Research Center Internet & American Life Project, June 26, 2012,
http://fe01.pewinternet.org/Reports/2012/Cell-Internet-Use-2012.aspx.
11
   Executive Office of the President, Office of Management and Budget, Office of E-Government and Information
Technology, Digital Government: Building a 21st-Century Platform to Better Serve the American People, May 2012,
http://www.whitehouse.gov/sites/default/files/omb/egov/digital-government/digital-government-strategy.pdf.
12
   Ibid., p. 7.


                                                       5
U.S. Postal Service Office of Inspector General                                   January 7, 2013
e-Government and the Postal Service                                              RARC-WP-13-003


Security and privacy for online transactions – For e-government services to evolve,
more rigorous authentication of an individual’s or organization’s identity is required,
along with appropriate measures to protect their privacy and security. From this
perspective, federal agencies will have to work together and with the private sector to
develop new common standards and solutions in the field of identity authentication and
personal credential management.

An information-centric approach – The information maintained by the federal
government is an asset with significant potential value to the public, and to the
government itself. Therefore, federal agencies should make government data easily
accessible, shareable, searchable, and usable both across agencies and to external
users (citizens, businesses, organizations, and local governments).

A customer-centric approach – Americans would like to be able to interact with their
government anytime, anywhere, and on any device. As a result, federal agencies will
have to implement a multi-channel access strategy to enable greater customization on
the basis of users’ needs and preferences.


The Role for the U.S. Postal Service in e-Government
The goals set forth in the Digital Government Strategy represent opportunities for the
Postal Service to assist other agencies in better serving citizens, and to fulfill its role in a
new era. By leveraging its physical and digital assets, the Postal Service can establish a
shared platform to help all levels of government provide customer-centric solutions that
address accessibility, security, and usability gaps while also cutting duplicative costs
across agencies.
                        Figure 3: The Postal Service Physical-Digital Platform




Source: OIG




                                                  6
U.S. Postal Service Office of Inspector General                                                      January 7, 2013
e-Government and the Postal Service                                                                 RARC-WP-13-003


A Physical-Digital Enabling Platform for Government Services

The Postal Service can play a role as a shared point of service for government to
interact with citizens, businesses, and other agencies. Through its physical and digital
platforms, the Postal Service could support a portfolio of services and applications to
help improve the security, efficiency, and convenience of government communications
and transactions. The Postal Service could act as an integrated physical and digital
“gateway” to e-government services by offering both government agencies and
consumers the convenience and cost savings associated with a digital channel, along
with a large physical footprint for face-to-face services as needed. This multi-channel
capability would help the government enhance access to its services by creating a
bridge to allow citizens and businesses to traverse between the digital and physical
spheres.

        Physical Component – There are service gaps where consumers do not readily
         have access to agencies’ physical locations but are unable or are unwilling to go
         online to complete essential transactions. The Postal Service, the most trusted
         federal agency, 13 can utilize its ubiquitous physical network of facilities, staff, and
         its information technology infrastructure to fill this gap through the efficient multi-
         channel delivery of government services. 14

        Digital Component – Through a digital postal platform and address management
         databases, the Postal Service could support a broad array of digital services.
         These could range from electronic and hybrid communications, to digital identity
         management, electronic payments, 15 front office services, and broadband access
         to help agencies either expand their portfolio of online services to the public, or
         achieve greater efficiencies.

Why the U.S. Postal Service?

Since its inception, the Postal Service has provided secure and private communications
as well as partnered with the public and private sectors to foster the flow of information,
commercial growth, and governmental outreach necessary for developing our nation. 16
In a digital era, the Postal Service can continue its mission to “bind the nation




13
   Ponemon Institute, “U.S. Postal Service Tops Ponemon Institute List of Most Trusted Federal Agencies,” news
release, June 30, 2010, http://www.ponemon.org/news-2/32.
14
   Services such as license renewals, issuance of certificates and government benefit cards, identity verification,
document notarization, or cash payments and disbursements would be accessible through a Post Office, a letter
carrier equipped with a portable device, or an electronic kiosk placed in a postal retail facility.
15
   For more details on these potential services, see the U.S. Postal Service Office of Inspector General white papers:
The Postal Service Role in the Digital Age Part 2: Expanding the Digital Platform, Report No. RARC-WP-11-003,
April 19, 2011, http://www.uspsoig.gov/foia_files/RARC-WP-11-003.pdf, Digital Identity: Opportunities for the Postal
Service, Report No. RARC-WP-12-011, May 29, 2012, http://www.uspsoig.gov/foia_files/RARC-WP-12-011.pdf, and
Digital Currency: Opportunities for the Postal Service, Report No. RARC-WP-12-001, October 3, 2011,
http://www.uspsoig.gov/foia_files/RARC-WP-12-001.pdf.
16
   National Postal Museum, 1792 Postal Act, http://www.postalmuseum.si.edu/exhibits/2a1h_1792act.html.


                                                          7
U.S. Postal Service Office of Inspector General                                                       January 7, 2013
e-Government and the Postal Service                                                                  RARC-WP-13-003


together” 17 by assisting the government in the provision of services in a relevant and
cost-effective manner, because it has

        A mission and role, recognized by legal precedent, that can evolve with
         technology;

        Competencies and assets that are ideally suited for e-government services; and

        Laws that allow the Postal Service to offer non-traditional postal services to the
         government.
                                    Figure 4: Why the U.S. Postal Service?




Source: OIG



Alignment with Postal Service mission and role
Historically, there is a strong precedent for the Postal Service to unite communities and
serve as a government touchpoint, especially in isolated and rural areas. With a national
presence that reaches every household and business in America, the Postal Service
became the government entity with the most prevalent contact with citizens. In many
small towns and rural areas, the Post Office building became the physical outpost of
other federal agencies, as these agencies used the postal network to help fulfill their
own missions. Many communities today, especially small rural towns and villages, still
utilize Post Offices in a similar manner.

The provision of government services, by physical or electronic means, would be
consistent with the Postal Service’s historical mission applied in a digital era. The Postal
Service in fact has often been allowed to pioneer or employ new technologies to uphold
17
  “The Postal Service shall have as its basic function the obligation to provide postal services to bind the Nation
together through the personal, educational, literary, and business correspondence of the people. . . . ”
39 U.S.C. § 101.


                                                           8
U.S. Postal Service Office of Inspector General                                                    January 7, 2013
e-Government and the Postal Service                                                               RARC-WP-13-003


its mandate and meet citizens’ emerging needs. Legal precedents suggest that the
Constitution does not require nor envisage Congress restricting the Postal Service to
the use of specific technologies to fulfill its mission, but rather keeping pace with
progress and the evolving needs of society. 18

Competencies and assets
Because of its competencies and assets, the Postal Service is ideally suited to partner
with government organizations. It can rely on a unique and unrivaled mix of resources:

        A history as a highly trusted intermediary ensuring security and privacy to
         communications and transactions that has allowed the Postal Service to function
         as an agent on government’s behalf to engage in essential activities such as
         processing passport applications for the U.S. Department of State.

        A position of legal standing for important communications as well as law
         enforcement capabilities that could provide physical mail-like services such as
         privacy of identity, security for transactions, and confidentiality of content in the
         digital age.

        Universal access including mail carriers that physically reach almost every
         address in the country 6 days a week, the largest retail network in the United
         States, one of the top 100 most visited websites in the nation, 19 and an address
         management database that covers every home and business in the country.

        Critical redundancy and resiliency in times of national emergency and responding
         to natural disasters such as Hurricane Katrina. The deployment of an integrated
         multi-channel communication platform could position the Postal Service as the
         backbone of the government emergency alert infrastructure.

Opportunities allowed under current law
According to the Postal Reorganization Act of 1970 (PRA), the Postal Service is
authorized to furnish property and services to executive agencies “under such terms
and conditions, including reimbursability, as the Postal Service and the head of the
agency concerned shall deem appropriate.” 20 Although the 2006 Postal Accountability
and Enhancement Act (PAEA) generally prevents the Postal Service from offering new
nonpostal services, these limitations do not apply to activities such as the offering of




18
   The Supreme Court has supported the Postal Service’s evolving role. In an 1877 case involving telegraph
companies, the court upheld the notion that the Postal Service can evolve with technological change. It stated that,
“The powers conferred upon Congress to regulate commerce … and to establish post offices and post roads are not
confined to the instrumentalities of commerce, or of the postal service known or in use when the Constitution was
adopted, but keep pace with the progress of the country and adapt themselves to the new developments of time and
circumstances,” Pensacola Tel. Co. v. W. Union Tel. Co., 96 U.S. 1, 3-49, 24 L Ed. 708 (1877).
19
   Alexa, Top Sites in United States, November 2012, http://www.alexa.com/topsites/countries;3/US.
20
   39 U.S.C. §411.


                                                          9
U.S. Postal Service Office of Inspector General                                                     January 7, 2013
e-Government and the Postal Service                                                                RARC-WP-13-003


non-traditional products and services to the federal government. 21 Under its own
regulations, the Postal Service can enter into service agreements with executive
agencies of the federal government if the objective is that of improving the quality and
lowering the cost of government services to the general public. 22 Moreover, the Postal
Service can set reasonable fees, in accordance with the time and cost for providing the
service for another agency, to compensate for work performed as well as general
overhead costs. 23 It is under these provisions that the Postal Service currently provides
services for several federal agencies.


The Postal Service Could Offer a Wide Range of e-Government
Products and Services
The current budget challenges faced by many agencies highlight the need for innovative
ways to transform and deliver services. Although online alternatives would cut costs, a
comprehensive one-stop, multi-channel service solution for government does not seem
to be currently available. We interviewed officials and reviewed reports from several
agencies to identify potential service needs. 24 We determined that the needs of these
agencies fell under five basic categories: communications management, online
identification, front office services, electronic payments, and broadband access.

In each category, the Postal Service could assist agencies in reducing costs, minimizing
fraud and abuse, and better serving citizens. By leveraging its digital infrastructure,
address databases, retail and delivery networks, and its trusted intermediary role, the
Postal Service could offer other agencies a large portfolio of physical and digital e-
government solutions. Figure 5 shows some examples of specific products or services
that the Postal Service could offer under each of the five categories. For more
information about some of these services, please see Appendix B.




21
   The Postal Regulatory Commission acknowledged, “Plainly, the activities undertaken by the Postal Service
pursuant to 39 U.S.C. § 411 are neither commercial in nature nor offered to the public for purposes of financial gain.
Thus, notwithstanding their characterization under the PRA [as nonpostal services], they are not deemed to be
services for purposes of review under 39 U.S.C. § 404(e).” See Postal Regulatory Commission Order No. 154,
“Review of Nonpostal Services under the Postal Accountability and Enhancement Act,” Docket No. MC2008-1,
December 19, 2008, http://www.prc.gov/Docs/61/61647/Order_No_154.pdf, p. 59.
22
   Postal regulations also state that the Postal Service can work with agencies whenever the overall costs to the
Government can be reduced. 39 C.F.R. § 259.1(a); see also Postal Service Administrative Support Manual (ASM)
13 § 421.11.
23
   39 C.F.R. § 259.1(b); see also ASM 13 § 421.12 (stating postal policy is “to charge compensatory fees for services
performed in behalf of agencies when these services involve significant or ongoing cost[s]”).
24
   We interviewed officials or reviewed documentation from multiple agencies, including the Treasury Inspector
General for Tax Administration, the General Services Administration, the Federal Communications Commission, the
Department of the Treasury, the Small Business Administration, and the Department of Defense.


                                                          10
U.S. Postal Service Office of Inspector General                                                   January 7, 2013
e-Government and the Postal Service                                                              RARC-WP-13-003

                              Figure 5: e-Government Products and Services




Source: OIG




Communications Management

Under the pressure to cut mailing costs and adapt to customers’ changing preferences,
government agencies are complementing or replacing their paper-based
communications with digital messaging systems. However, the current online
communications environment remains highly fragmented and often lacks the level of
safety and confidentiality appropriate for the transmission and storage of sensitive
government messages. While private sector companies have developed widely used e-
mail services, their business models can sometimes sacrifice consumer privacy in the
interest of ad-based revenue generation. 25 Although a number of agencies have
developed tools for online communications, no single agency currently provides a
comprehensive and securely authenticated solution necessary to support a full suite of
government communications and transactions.

With a suite of existing and potential products and services — including secure
electronic messaging, Electronic Postmark®, digital-to-physical and physical-to-digital
mail, and electronic archiving of records — the Postal Service could enhance agency
communications in many ways.

25
  For example, some e-mail services providers scan e-mails and track Internet searches to develop preference-
based advertising. Many of the passwords can easily be guessed, leaving end-users vulnerable to identity theft and
companies vulnerable to fraud.


                                                        11
U.S. Postal Service Office of Inspector General                                                        January 7, 2013
e-Government and the Postal Service                                                                   RARC-WP-13-003


Online Identification

Many complex or sensitive government transactions cannot be completed online due to
the lack of adequate verification standards that are rigorous yet convenient for users. 26
Examples may include requesting a Social Security card or an Individual Taxpayer
Identification Number. Today’s digital identities are largely unfit for use with many
government services. For example, usernames and passwords, which are the most
common forms of digital identity, are relatively easy to hack and are therefore
inadequate for many governmental interactions. In addition, each government agency
may have a different way of verifying that a particular person owns an online identity.
This forces users to authenticate their identities with each government entity, which can
expose even more users’ identities to theft and fraud risks. 27

The Postal Service could facilitate the transition of government transactions online by
offering digital and in-person identification services. The postal digital identity could
serve as the foundation for safely moving online a number of highly complex and
sensitive transactions. 28

Front Office Services

The Postal Service’s extensive network of retail facilities and carriers could serve as a
physical access channel to government services for users who are not willing or unable
to use the Internet, or where a face-to-face transaction is needed. Some examples
would be identity verification for issuance of government benefit cards, electronic
identity smart cards, document notarization, or payments and disbursements. An
employee could verify credentials, scan forms and other documentation, apply a digital
signature, and transmit the information to the involved agencies through a secured
electronic channel. Moreover, because of its nationwide reach, the Postal Service could
lease window space to allow other agencies direct access to citizens who were formerly
out of reach for in-person transactions.

By acting as a shared service point for multiple agencies, the Postal Service could help
the government save money by reducing duplicative activities across various agencies,
and provide a more customer-centric, one-stop shop for government services.

Electronic Payments

Federal, state, and local government entities delivering social benefits to citizens are
engaging in electronic payment programs to reduce mailing and processing costs. For
26
   National Institute of Standards and Technology, Electronic Authentication Guideline: Information Security, Special
Publication 800-63-12011, December, 2011, http://csrc.nist.gov/publications/nistpubs/800-63-1/SP-800-63-1.pdf.
27
   In 2010, 8.1 million U.S. adults were the victims of identity theft or fraud, with total costs of $37 billion. Javelin
Strategy and Research, 2011 Identity Fraud Survey Report, February 2011.
28
   The Postal Service has recently been approved as a member of the Federal Cloud Credential Exchange (FCCX)
Tiger Team. The FCCX is an inter-agency team whose goal is to collaborate with the private sector to create a single
government-wide secure online identification system. The system will allow government websites to accept users’
identity based on attributes (for example, address, SSN, or citizen status) collected and verified by a trusted third-
party.


                                                           12
U.S. Postal Service Office of Inspector General                                                     January 7, 2013
e-Government and the Postal Service                                                                RARC-WP-13-003


example, as of March 1, 2013, all federal benefit and non-tax payments will be paid
electronically. 29 Nevertheless, many benefit recipients do not qualify for or cannot afford
a bank account. To meet the needs of these unbanked citizens, some agencies are
offering prepaid cards — which do not require users to have a bank account or a credit
history to be used — to allow them to receive their benefits electronically.

The Postal Service could provide prepaid card services to government entities to help
them offer unbanked households an alternative to physical checks. The request for a
prepaid card could be submitted at any Post Office or through a letter carrier. The postal
representative would verify the applicant’s identity on behalf of the partnering agency to
limit the risk of fraud or identity theft. Cardholders could use the ubiquitous postal retail
network to reload the card, redeem it for cash, or initiate a money transfer transaction.
The postal prepaid card could also link to a mobile application to allow users to manage
benefits through their smartphones. 30

Broadband Access

Despite the increasing adoption of high-speed Internet, millions of Americans do not
have access to broadband today, mostly in rural and remote areas. 31 By utilizing its vast
physical network and roots in every community in America, the Postal Service could
play an instrumental role in bringing broadband to every citizen and business. For
example, the Postal Service could lease facility space to Internet and mobile service
providers for the installation of network connection equipment. In addition, the Postal
Service could provide a community service by designating Post Offices in underserved
areas as access points or broadband hotspots, offering wireless access to the public. 32
Finally, the Postal Service could also help identify coverage gaps in the modern
communication infrastructure. For example, the Postal Service could collect data to
evaluate and improve mobile Internet quality and reach by equipping postal vehicles
with detection sensors to report dead spots and signal interference.


Agencies Could Benefit from a Postal Service e-Government Offering
Through our interviews with agency officials and our own research, we identified the
following examples of agencies that could benefit from the Postal Service’s
e-government product and service offerings.

        Internal Revenue Service (IRS) – IRS has issued more than $5 billion in
         undetected, potentially fraudulent tax returns, and could issue as much as

29
   “Management of Federal Agency Disbursements,” Federal Register 75, No. 245 (December 22, 2010), pp. 80315-
80335.
30
   For more details on this potential service, see U.S. Postal Service Office of Inspector General, Digital Currency:
Opportunities for the Postal Service, http://www.uspsoig.gov/foia_files/RARC-WP-12-001.pdf.
31
   The Federal Communications Commission, Connecting America: The National Broadband Plan, March 16, 2010,
http://download.broadband.gov/plan/national-broadband-plan.pdf, p. 3.
32
   U.S. Postal Service Office of Inspector General, 21st Century Post Office: Aligning with the National Broadband
Infrastructure Initiative, Report No. DA-MA-12-002, January 23, 2012, http://www.uspsoig.gov/foia_files/DA-MA-12-
002.pdf.


                                                         13
U.S. Postal Service Office of Inspector General                                                       January 7, 2013
e-Government and the Postal Service                                                                  RARC-WP-13-003


         $21 billion in potentially fraudulent returns over the next 5 years. 33 This is
         partially due to weaknesses in IRS’s internal controls for assigning tax
         identification numbers to some individuals — including a lack of in-person identity
         verification or review of required documents. With its large physical network and
         existing authentication services, the Postal Service could verify filers’ identities,
         helping to ensure that tax refunds go only to legitimate filers. 34 In addition, IRS
         holds questionable returns during processing while it works to verify filers’
         identities. In-person authentication by Postal Service employees could play a key
         role in this process as well. Moreover, the Postal Service could leverage its
         address management system to verify individuals’ mailing addresses to help IRS
         reduce multiple fraudulent returns linked to the same physical addresses. In
         recent years, some single addresses have been associated with hundreds of
         potentially fraudulent returns, resulting in millions of dollars in fraud.

        Federal Communications Commission (FCC) – As part of its National Broadband
         Plan, FCC manages a number of funding sources to promote consumer access
         to Internet services. In July 2012, it launched the Connect America Fund, a
         public-private funding initiative aimed at supporting the expansion of high-speed
         Internet services to 19 million underserved rural residents by 2020. 35 With 36,000
         retail facilities nationwide, including rural areas with limited broadband coverage,
         the Postal Service could support this plan by providing wireless broadband
         access at Post Offices and surrounding areas — serving as the backbone of a
         system that closes the digital divide in many communities.

        The Department of the Treasury (Treasury) – Treasury promotes the use of
         electronic payments of social benefits, largely through a prepaid card program.
         The program is aimed specifically at citizens without bank accounts so that they,
         too, can receive their benefits electronically. The Postal Service retail network
         could provide an additional information and enrollment channel, supporting
         Treasury in reaching out to non-digital citizens and residents of remote areas.
         For example, the requests for Treasury’s prepaid card could be submitted at any
         Postal Service retail outlet, where personnel would verify the identity of the
         applicants, helping limit the risk of fraud or identity theft. The request could then
         be sent to Treasury for further processing, or a Post Office could issue the card.
         As an alternative to the Treasury-issued card, a prepaid card issued by the
         Postal Service itself could also receive social benefits directly. The owner of a
         postal prepaid card could activate this option simply by submitting the request to
         Treasury through a Post Office. In both cases, cardholders could use the postal



33
   For information on tax refund fraud facing IRS, see Treasury Inspector General for Tax Administration, There Are
Billions of Dollars in Undetected Tax Refund Fraud Resulting from Identity Theft, Report No. 2012-42-080, July 19,
2012, http://www.treasury.gov/tigta/auditreports/2012reports/201242080fr.html and Substantial Changes Are Needed
to the Individual Taxpayer Identification Number Program to Detect Fraudulent Applications, Report No. 2012-42-081,
July 16, 2012, http://www.treasury.gov/tigta/auditreports/2012reports/201242081fr.html.
34
   The Postal Service currently completes verification activities for the Department of State for passport applications.
35
   Federal Communications Commission, http://www.fcc.gov/encyclopedia/connecting-america, last accessed on
November 26, 2012.


                                                          14
U.S. Postal Service Office of Inspector General                                                    January 7, 2013
e-Government and the Postal Service                                                               RARC-WP-13-003


         retail network to reload the card, redeem it for cash, or initiate a money transfer
         transaction. 36

        Small Business Administration (SBA) – SBA operates more than 900 Small
         Business Development Centers to provide assistance and information to current
         and aspiring business owners on how to start, run, and improve a small
         business 37 — the engines of our nation’s economic growth. Although the Small
         Business Development Centers allow SBA to serve many citizens across the
         country, the Postal Service’s unmatched nationwide reach could enhance SBA’s
         ability to support small businesses. With a physical presence in nearly every
         community, postal facilities could be a one-stop access point for connecting with
         the information, resources, and tools to start and grow a business. Interested
         citizens could use kiosks to look up information on applicable laws and
         regulations, submit federal loan applications, have their identities authenticated,
         attach electronic signatures, and file all required paperwork in digital or physical
         form. SBA could potentially lease excess window space in postal retail locations
         throughout the country to have their agents available to assist citizens in a cost
         effective manner.

        Department of Defense (DOD) – In Summer 2012, DOD began a program to
         digitize incoming mail so that Pentagon staff could access and manage their mail
         in a physical or digital format. The DOD program currently allows for the
         processing of up to 500,000 pages of scanned mail per month for about 25,000
         recipients. 38 However, the system only scans incoming mail; while outgoing
         physical mail is not digitized. The Postal Service could offer hybrid mail services
         with legal standing and force of law to complete the physical-digital cycle for
         DOD and other agencies. 39

        Social Security Administration (SSA) – Citizens depend on SSA for retirement
         benefits, Social Security numbers and cards, disability benefits, and other
         essential services. With over 1,200 field offices spread across the United States,
         SSA has attempted to provide for convenient face-to-face access for serving
         citizens. 40 In addition, the SSA web site allows for online application to many
         benefit programs. However, as discussed above, some of the individuals most in
         need of government programs — people physically or socioeconomically
         vulnerable — may be those least likely or able to use the Internet to access
         government services or information. These individuals might also have unique
         challenges traveling to an SSA field office for assistance or accessing online
36
   This example originally appeared in U.S. Postal Service Office of Inspector General, Digital Currency:
Opportunities for the Postal Service, http://www.uspsoig.gov/foia_files/RARC-WP-12-001.pdf.
37
   Small Business Administration, http://www.sba.gov/content/small-business-development-centers-sbdcs, last
accessed on October 31, 2012.
38
   Federal News Radio, http://www.federalnewsradio.com/537/2929219/Pentagon-to-begin-online-delivery-of-US-
mail, November 1, 2012; and Defense Post Office documentation presentation to U.S. Postal Service Office of
Inspector General, September 11, 2012.
39
   The Postal Service has both internal and external law enforcement arms — the Office of Inspector General and
the Postal Inspection Service, respectively — to investigate issues of fraud, tampering, or other legal violations
involving the mail. It could apply its existing capabilities to postal activities in the digital sphere.
40
   Social Security Administration, http://www.ssa.gov/org/, last accessed on November 1, 2012.


                                                         15
U.S. Postal Service Office of Inspector General                                                 January 7, 2013
e-Government and the Postal Service                                                            RARC-WP-13-003


         tools. The Postal Service’s widespread presence in every community could
         enhance SSA’s ability to reach every citizen. Moreover, through services like
         digital identity verification and prepaid cards, the Postal Service could help SSA
         in reducing fraud and abuse in its benefits programs.

        Federal Emergency Management Agency (FEMA) – The Postal Service could
         assist FEMA and other federal, state, and local agencies in the face of natural
         disasters and man-made emergencies by providing multi-channel messaging
         (both digital and physical components) which offers critical redundancy and
         resiliency. Postal Service expertise in address management and its delivery
         network could be leveraged to strengthen relief efforts by tracking the evacuation
         and relocation of populations, combating claimant fraud, and showing the impact
         on hosting communities. A prime example is the assistance provided to citizens
         relocating to Baton Rouge during the aftermath of Katrina. No other firm or
         governmental agency has the network capabilities or reach to accomplish this
         necessary service for the nation. 41


Implementation Considerations
For the Postal Service to develop an e-government service portfolio, it will need to
create an implementation plan that could consider the elements shown in Figure 6 on
the following page:




41
  This example originally appeared in U.S. Postal Service Office of Inspector General, Meeting America’s Emerging
Communications Needs, Report No. RARC-WP-12-009, April 27, 2012, http://www.uspsoig.gov/foia_files/RARC-WP-
12-009.pdf.


                                                       16
U.S. Postal Service Office of Inspector General                                   January 7, 2013
e-Government and the Postal Service                                              RARC-WP-13-003

          Figure 6: Implementation Considerations for a Potential e-Government Platform




Source: OIG


       Create a dedicated unit – To ensure organizational focus and resource
        allocation, the Postal Service could create a specific business unit or team
        dedicated to e-government. Selecting a vice president with experience in e-
        government technologies and outreach will provide the skills and capabilities
        necessary for the successful design and implementation of the Postal Service’s
        e-government strategy. Equally important, this unit should deploy new solutions
        in a phased, pilot approach. Learning from mistakes can reduce costs and build a
        solid foundation for a successful nationwide rollout.

       Coordinate with other agencies – The Postal Service could form an interagency
        task force with agencies like the General Services Administration (GSA) and
        OMB to identify potential areas of collaboration and common action plans.
        Consultations with federal, state, and local governments would help the Postal
        Service better design and prioritize their service offering to cater to the rules,
        processes, and needs of these stakeholders.

       Identify appropriate funding mechanisms – Because of the Postal Service’s
        current financial liquidity issues, the funding to start up appropriate e-government




                                                  17
U.S. Postal Service Office of Inspector General                                                  January 7, 2013
e-Government and the Postal Service                                                             RARC-WP-13-003


        services is an important topic. The Postal Service could consider one or more of
        the following options:

             o Service fees – The Postal Service could charge agencies a predetermined
               fee for each transaction that is conducted using the Postal Service
               infrastructure or resources. Some existing federal e-government services
               are based on this funding model, and rely on a usage-based fee structure
               (for example, fees based on the number of transactions). 42

             o User fees – Federal, state, and local governments currently charge a user
               fee on selected, value-added services, including many online government
               services. For this category of services, and in situations where
               government funds are not available, the Postal Service could charge end
               users, instead of agencies, a small transaction fee. A growing number of
               foreign postal operators practice this model.

             o Rental fees – The Postal Service could receive rental fees from agencies
               in return for their use of postal facilities and resources, including the rental
               of windows to provide space for face-to-face transactions.

             o Partnerships – Partnering with private sector providers could allow the
               Postal Service to reduce initial investment, as well as mitigate
               development risks. Revenue from ongoing operations could then be
               shared by the private sector provider and the Postal Service.

             o Interagency shared funding – Participating agencies could join with the
               Postal Service in contributing funds toward running e-government
               services. In existing e-government initiatives that use this funding model, a
               managing partner agency (assigned by OMB) receives funding for in-kind
               services — such as staff time — from partner agencies also participating
               in the initiative. Annual contribution amounts are set through collaborative,
               interagency governance structures and are subject to approval by OMB. 43

             o Appropriations funding – Some of the Postal Service’s e-government
               initiatives might also benefit from funds that the federal government
               allocates to ensure the availability of many basic electronic
               communications services to all Americans. Specifically, FCC’s multi-billion
               dollar Universal Service Fund advances broadband adoption, 44 and the


42
    Executive Office of the President, Office of Management and Budget, Report to Congress on the Benefits of the
President’s E-Government Initiatives: Fiscal Year 2008,
http://www.whitehouse.gov/sites/default/files/omb/assets/egov_docs/FY08_Benefits_Report.pdf, pp. vi-vii.
43
    Executive Office of the President, Office of Management and Budget. Report to Congress on the Benefits of the
President’s E-Government Initiatives: Fiscal Year 2012,
http://www.whitehouse.gov/sites/default/files/omb/assets/egov_docs/fy12_e-gov_benefits_report.pdf, p. 8.
44
    Federal Communications Commission, Fact Sheet: Genachowski Addresses Smart Government and Reforms to
Lifeline, January 9, 2012, http://www.fcc.gov/document/fact-sheet-genachowski-addresses-smart-govt-and-reforms-
lifeline.


                                                        18
U.S. Postal Service Office of Inspector General                                                    January 7, 2013
e-Government and the Postal Service                                                               RARC-WP-13-003


                  $12 million E-Government Fund expands the ability of the federal
                  government to conduct activities electronically. 45

        Develop a digital platform – The development of a viable digital platform is the
         underpinning of a comprehensive Postal Service e-government strategy and
         solution deployment. An open and flexible platform should be designed to easily
         interface with third-party systems. 46

        Equip Post Office facilities to offer new services – In order to implement new
         services in a cost-effective manner, the Postal Service may need to adapt its
         traditional window service operations. Training employees on new skills and
         procedures as well as streamlining processes would drive cost efficiencies.
         Another option would be to lease excess window space in postal facilities to
         partnering agencies.

        Leverage private-sector partnerships – Engaging the private sector would
         harness the agility, technical competence, and resources necessary for the
         successful deployment of e-government solutions.


Many International Posts Successfully Offer e-Government Services
For many international postal operators, e-government is an established component of
their products and services portfolio. In most industrialized countries, posts play a
crucial role in facilitating the interaction between all levels of government and citizens, in
both the physical and digital spheres.

The postal operators’ traditional trusted intermediary function, the geographical density
of their retail networks, and their growing technological capabilities are assets that
governments rely on to provide more efficient, secure, and easily accessible services. In
addition to supporting their citizens, some international postal operators view e-
government services as a strategic opportunity to generate new revenue, support their
post office networks, and extend their natural intermediary role to the digital sphere. In
some countries the partnership between the government and the postal operator is
more tactical and service-specific, while in others it is part of a broader e-government
strategy in which postal operators are an integral component.

The array of e-government services offered by international posts is broad and can
range from digital and hybrid communications management to electronic payments,
identity authentication and verification services, front office functions, and broadband
access. For some of these postal operators, such as Italy, Ireland, and Australia,



45
   U.S. Senate, Senate Financial Services and General Government Appropriations Bill, 2013, Report Number 112-
177, June 14, 2012, http://www.gpo.gov/fdsys/pkg/CRPT-112srpt177/html/CRPT-112srpt177.htm, p. 87.
46
   For more details see the U.S. Postal Service Office of Inspector General, The Postal Service Role in the Digital
Age Part 2: Expanding the Digital Platform, http://www.uspsoig.gov/foia_files/RARC-WP-11-003.pdf.


                                                         19
U.S. Postal Service Office of Inspector General                                                      January 7, 2013
e-Government and the Postal Service                                                                 RARC-WP-13-003


government services represent a substantial and increasing share of the revenue
generated by their retail network. 47

Poste Italiane has a well-established partnership with all levels of government. Its
strategy is to position itself as a multi-channel access point to public services, both
through its physical infrastructure and its PosteGov online platform. For example, Poste
Italiane is part of the Italian government’s “Friends Network” project — a central
government‐led initiative to provide easy access to government information and
services though the postal retail network.

In Australia and Ireland, the post office network has traditionally played a significant role
in providing access to central and local government services, especially in rural and
remote areas. Recently, both Australia Post and An Post have been working on
complementing their offerings with e-government solutions in the area of digital ID and
e-communication services.

In Switzerland and Canada, the use of the postal retail network as a physical access
point for government services has been relatively limited. Swiss Post and Canada Post,
however, positioned themselves as digital government service providers. Swiss Post is
currently involved in a government initiative aimed at developing an electronic identity
verification solution. In Canada, municipal authority bills can be paid electronically via
Canada Post eMailbox services.

In Saudi Arabia, Saudi Post is actively partnering with government on the
implementation of a national e-government strategy. For example, Saudi Post has
recently developed a national addressing and postal code system using digital
Geographic Information Systems (GIS) data, which became the mandatory addressing
standard in the country.

Additional information about the postal e-government services provided in these
countries is presented in Appendix C.


Conclusion
The evolution of e-government promises to fundamentally reshape government services
for the benefit of citizens and businesses everywhere. It presents the Postal Service
with an opportunity to leverage its digital and physical networks, historical mission, and
other assets to enhance the services provided by other agencies. As the government
continues to shift to a more customer-centric focus in its services, the Postal Service’s
role as the most trusted federal agency and its ability to reach every household and
business in America will grow increasingly important. No other agency has the
experience of touching so many citizens every day in so many different locations. In
47
  In 2011, government services accounted for about 16 percent of Poste Italiane’s total revenues, approximately 16
percent of Australia Post’s retail revenues, and more than 50 percent of An Post’s (Ireland) retail revenue. See report
by Triangle Management Services Ltd., Post Offices and Local Government Services – An International Literature
Review, 2011, http://www.consumerfocus.org.uk/scotland/files/2011/08/POs-Government-Services-International-
Comparisons-Final-Triangle-Report.pdf, pp. 16, 29, 44, and 52.


                                                          20
U.S. Postal Service Office of Inspector General                             January 7, 2013
e-Government and the Postal Service                                        RARC-WP-13-003


addition, the difficult budget environment heightens the need for consolidation of
services and identifying other ways to reduce costs. We encourage the Postal Service
to continue its outreach to other federal agencies as it works to develop a postal digital
platform, to better identify which elements of the platform might best serve each agency
and its key customers and stakeholders. Pursuing the most actionable opportunities first
will provide quick wins to demonstrate that the Postal Service is uniquely positioned to
partner with other agencies in enhancing existing services and delivering new customer-
centric services in the most efficient, effective, and considerate manner.




                                                  21
U.S. Postal Service Office of Inspector General           January 7, 2013
e-Government and the Postal Service                      RARC-WP-13-003




                                            Appendices




                                                  22
U.S. Postal Service Office of Inspector General                                              January 7, 2013
e-Government and the Postal Service                                                         RARC-WP-13-003




Appendix A               Key Developments in Federal e-Government

Over the past two decades e-government initiatives largely focused on improving
services for citizens, strengthening agency operations, and reducing duplication of
functions. The table below depicts some of the key e-government developments in the
United States, as well as the major goals of these initiatives.

    Development                                              Description
Government Paperwork         Required agencies to allow for optional electronic submission of information
Elimination Act (1998)       and maintenance of records, when practicable. It also states that electronic
                             records and their related electronic signatures are not to be denied legal
                             effect, validity, or enforceability merely because they are in electronic form.
“Quicksilver” Initiatives    More than 20 initiatives, including electronic tax filing, information on
(started 2001)               business regulations, electronic rulemaking, information on grants, and other
                             services.
E-Government Act of          Officially defined e-government. Provided guidance on how to make
2002                         government information and services available online. Established an Office
                             of Electronic Government within the Office of Management and Budget,
                             headed by a federal Chief Information Officer. Also established the E-
                             Government Fund to support key projects.
Open Government              Required each agency to make more information available online, improve
Directive (2009)             the quality of their information, and foster a culture of open government.
Digital Government           Calls for agencies to develop measurable goals for delivering digital
Strategy (2012)              services; new solutions in identity, authentication, and credential
                             management; more information and services available through mobile and
                             web-based technologies.

                                              Major Goals
    •   Facilitate citizen participation.            •    Promote transparency and accountability.


    •   Enhance access to information.               •    Strengthen interagency operations.


    •   Improve services to citizens,                •    Reduce duplication of functions.
        businesses, and agencies.


    •   Design services for mobile use.              •    Enable better use of government data.




                                                     23
U.S. Postal Service Office of Inspector General                                              January 7, 2013
e-Government and the Postal Service                                                         RARC-WP-13-003




Appendix B               Additional Details on Select Postal Service e-
                         Government Offerings

The table below provides details about some of the e-government products and
services that could be offered by the Postal Service to other agencies. All products and
services would assist agencies in reducing costs, mitigating the risk of fraud and abuse,
and better serving citizens.

       Product/Service                                           Description
Secure Electronic Messaging            To secure and certify electronic communications to and from the
                                       government, the Postal Service could develop a digital
                                       messaging system, accessible only to authenticated users to
                                       ensure the confidentiality, integrity, authenticity and non-
                                       repudiation of digitally transmitted records. This system would
                                       link a user’s e-mail and physical address. For each e-message
                                       sent through the secure e-messaging system, the Postal Service
                                       would verify the identity of the sender. As the identity of the
                                       recipient would be tied to a physical address, the same message
                                       could be delivered by the Postal Service as a physical mail
                                       piece.

Electronic Postmark (EPM)®             The EPM, a technology already owned by the Postal Service,
                                       associates a time and date stamp with a digital record. Because
                                       the EPM has legal standing under a variety of federal and state
                                       government laws, in specific cases, an e-postmarked document
                                       has the same validity and enforceability as a paper document.
                                       This technology also provides traceable proof of sending and
                                       receipt, as well as evidence of tampering or modification during
                                       transmission. The EPM could be used to sign and notarize
                                       electronic documents.

Hybrid Mail                            The Postal Service could convert digital documents to physical
                                       and vice versa (reverse hybrid) for senders and receivers. The
                                       Postal Service, which already partners with private providers to
                                       offer this service to its commercial customers, could develop a
                                       hybrid mail application tailored to government needs and security
                                       standards.

Certified Electronic Archiving (e-     The Postal Service, by leveraging the potential capabilities of its
Archiving)                             electronic and hybrid mail services, could provide certified digital
                                       storage services to support federal, state, and local agencies in
                                       their efforts to eliminate expensive paper archives and improve
                                       electronic record management. The Postal Service e-archiving
                                       solution could include the scanning, digitizing, and filing of
                                       documents and data in secure electronic storage spaces only
                                       accessible to authenticated users. Each digital file could be
                                       notarized with legally enforceable digital signatures or employ
                                       EPM to provide legal validity like that of the original hard copies.




                                                     24
U.S. Postal Service Office of Inspector General                                               January 7, 2013
e-Government and the Postal Service                                                          RARC-WP-13-003


        Product/Service                                           Description
Digital Identity                       By leveraging both its addressing management databases and
                                       its nationwide network of physical locations and postal carriers,
                                       the Postal Service would be able to verify a variety of identity
                                       physical attributes. The verification process would include
                                       document validation through in-person proofing, collection of
                                       individuals’ biometric data (for example, fingerprints or retinal
                                       scans), or physical address verification. Through these strong
                                       forms of in-person identity verification, the Postal Service could
                                       help reduce online services sign-up hassle, eliminate paper
                                       processing, help protect users’ privacy, limit the risk of identity
                                       fraud, and expand the possibilities for new online services.


                                       In addition to verifying physical attributes of identities issued by
                                       other organizations, the Postal Service itself could act as an
                                       identity provider. The postal digital identity could serve as the
                                       foundation for a number of different online access tools. In
                                       addition to securely accessing e-government services, it could
                                       serve as the core identifier on a postal smart card, which could
                                       provide additional services like government benefits
                                       disbursements or making health records sharable across
                                       providers.


                                       The Postal Service could also expand into Mobile-ID solutions,
                                       which are electronic ID for mobile and smartphones. Like a smart
                                       card, the Mobile-ID would contain digital identification attributes
                                       to allow individuals to identify themselves and sign documents
                                       digitally. The digital identity would be stored on a subscriber
                                       identity module (SIM) card used in mobile phones. As
                                       government embraces mobile phone technologies, agencies
                                       could allow individuals to use smartphones as identification
                                       tokens instead of smart cards.

Prepaid Cards                          The Postal Service could help provide prepaid card services to
                                       government entities and offer unbanked households prepaid
                                       card and e-money transfer services. As these payment tools do
                                       not require users to have a bank account or a credit history, they
                                       could be a viable alternative to physical checks. The request for
                                       a prepaid card could be submitted at any Post Office or through
                                       a letter carrier. The postal representative would verify the
                                       applicant’s identity on behalf of the partnering agency to limit the
                                       risk of fraud or identity theft. Cardholders could use the
                                       ubiquitous postal retail network to reload the card, redeem it for
                                       cash, or initiate a money transfer transaction. The postal prepaid
                                       card could also link to a mobile application to allow users to
                                       manage benefits through their smartphones.




                                                     25
                                                                                                                                                                           e-Government and the Postal Service
                                                                                                                                                                           U.S. Postal Service Office of Inspector General
     Appendix C                 e-Government Services Provided by Selected International Postal Operators

          Service
                                 Australia                 Italy                 Ireland              Switzerland                Canada              Saudi Arabia
         Categories
      Communications        Digital Mail           Digital Mail            Digital Mail            Digital Mail            Digital Mail            Digital Mail
      Management
                            Hybrid Mail            Hybrid Mail             Certified e-Mail        Hybrid Mail             Hybrid Mail             Certified e-Mail
                                                   Certified e-Mail        Electronic              Certified e-Mail
                                                                           Document
                                                   e-Archiving             Management and
                                                                           Data Capture of Tax
                                                                           Records
                                                                           e-Archiving
      Online                Digital Identity       e-Signature             Digital Identity        Digital Identity                                Online Address
      Identification        Authentication                                 Authentication          Authentication                                  Validation
                                                                           e-Signature             e-Signature
      Front Office          Renewal and            Renewal and             Renewal and             Renewal and             Renewal and             License Renewals
26




      Services              Issuance of            Issuance of             Issuance of             Issuance of             Issuance of             and Registrations
                            Licenses,              Licenses,               Licenses,               Licenses,               Licenses,
                            Passports, and         Passports, and          Passports, and          Passports, and          Passports, and
                            Certificates           Certificates            Certificates            Certificates            Certificates
                            Submission of          Submission of           Submission of           Submission of           Submission of
                            Applications and       Applications and        Applications and        Applications and        Applications and
                            Registrations          Registrations           Registrations           Registrations           Registrations
                            Payment of Bills,      Payment of Bills,       Payment of Bills,       Payment of Bills,       In-Person
                            Fines, and Taxes       Fines, and Taxes        Fines, and Taxes        Fines, and Taxes        Verification
                            Document               Social Benefits         Social Benefits
                            Notarization, Scan     Disbursement            Disbursement
                            and Send
                                                   State Savings           State Savings
                            In-Person              Products                Products
                            Verification




                                                                                                                                                                           RARC-WP-13-003
                                                   Call Center Services




                                                                                                                                                                            January 7, 2013
      Electronic            e-Payments             e-Payments,             e-Payments,             e-Payments              e-Payments              e-Payments
      Payments                                     e-Delivery of           e-Delivery of
                                                   Benefits                Benefits
     Note: The services listed above are offered to or on behalf of other government entities. This table is not exhaustive, and additional services may be available to
           individuals and business customers.
